HHS/OIG, Audit -"Review of New Payment Provisions for Ambulance Suppliers in Puerto Rico April 1, 2002 to December
31, 2003,"(A-02-04-01013)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of New Payment Provisions for Ambulance Suppliers in Puerto Rico April 1, 2002 to December 31, 2003," (A-02-04-01013)
December 22, 2004
Complete
Text of Report is available in PDF format (203 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Triple S complied with the new Medicare fee schedule provisions for the payment
of ambulance services.  We determined that Triple S complied with the new Medicare fee schedule provisions for payment
of ambulance services rendered between April 1, 2002 and December 31, 2003.  Accordingly, we have no recommendations.